No. 20IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

ZBIGNIEW M. LASKOWSKI,
Petitioner,
v.
WASHINGTON STATE DEPARTMENT OF
LABOR AND INDUSTRIES,
Respondent.

CERTIFICATE OF SERVICE
I, Zbigniew M. Laskowski, do swear or declare that on this date, January 19, 2021, as required by
Supreme Court Rule 29,1 have served and enclosed corrected PETITION FOR A WRIT OF CERTIORARI
and MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the united State mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days:
The names and addresses of those served are as follows:
Anastasia Sandstrom, AAG
OFFICE OF ATTORNEY GENERAL-SEATTLE
DIVISION OF LABOR AND INDUSTRIES
800 FIFTH AVE., Suite 2000
SEATTLE, WA 98104
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 19, 2021.

SIGNATURE
1

